                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Ineffective Oversight of
                     Purchase Cards Results in
                     Inappropriate Purchases
                     at EPA
                     Report No. 14-P-0128                    March 4, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                                Catherine B. Allen
                                                     Melinda Burks
                                                     Eileen Collins
                                                     Kimberly Crilly
                                                     Janet Kasper
                                                     Paula Latham
                                                     Madeline Mullen
                                                     LaTanya Scott




Abbreviations

CMM               Contracts Management Manual
EPA               U.S. Environmental Protection Agency
FMFIA             Federal Managers’ Financial Integrity Act
FY                Fiscal Year
GSA               General Services Administration
OAM               Office of Acquisition Management
OARM              Office of Administration and Resources Management
OIG               Office of Inspector General
OMB               Office of Management and Budget


Cover photo:      Government purchase card. (U.S. General Services Administration)



 Hotline 	                                      Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations, 

 us through one of the following methods:       contact us through one of the following methods:


 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General Hotline
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2431T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                  14-P-0128
                                                                                                             March 4, 2014
                        Office of Inspector General


                        At a Glance

Why We Did This Audit               Ineffective Oversight of Purchase Cards
The Government Charge Card          Results in Inappropriate Purchases at EPA
Abuse Prevention Act of 2012
states the Inspector General is      What We Found
to conduct periodic
assessments of the agency           The EPA did not provide effective oversight to
purchase card and                                                                          The EPA began taking
                                    ensure that purchase card holders and approving        action to improve the
convenience check programs          officials comply with internal control procedures.     oversight of purchase
to identify and analyze risks of    Of $152,602 in transactions we sampled, we found       cards and is considering
illegal, improper or erroneous      $79,254 of prohibited, improper and erroneous          other improvements.
purchases and payments.             purchases. Some of the more egregious purchases
The Office of Inspector General     we identified were meals for an awards recognition ceremony and gym
(OIG) also looks for categories     memberships for EPA employees and their families.
of purchases that could be
made by means other than            Although the Office of Administration and Resources Management’s Federal
purchase cards in order to          Managers' Financial Integrity Act 2012 assurance letter stated that the agency
better aggregate purchases          would take corrective actions to correct any identified vulnerabilities, it allowed
and obtain lower prices.            offices to skip a recent biennial review and did not require follow-up.
In fiscal year 2012, the
                                    The EPA is analyzing transactions to identify purchases that can be made by
U.S. Environmental Protection
                                    other means to obtain lower prices. The EPA initiated a Business Analysis and
Agency’s (EPA’s) active
                                    Strategic Sourcing Service Center team to identify efficiencies in contracting to
cardholders spent more than
                                    encourage competition and decrease spending with nonmandatory vendors.
$29 million in purchases. The
                                    The EPA estimated potential cost savings of 8 percent.
EPA did not provide effective
oversight to ensure that
purchase card holders and            Recommendations and Planned Agency Corrective Actions
approving officials complied
with internal control               We recommend that the EPA implement regular transaction reviews to determine
procedures.                         if the cardholders and approving officials are complying with EPA guidance. The
                                    EPA should provide additional training to the purchase card holders and approving
This report addresses the           officials to address issues identified in this report and institute follow-up actions for
following EPA theme:                the prohibited, improper or erroneous purchases identified in this audit. The EPA
                                    should institute agencywide standard operating procedures, and revise the
  Embracing EPA as a high          Contracts Management Manual to more specifically address purchases such as
   performing organization.         gym memberships and gift cards. In addition, the EPA should ensure that biennial
                                    review weaknesses are corrected and change the biennial review process to
                                    ensure that each office conducts uniform reviews, including transaction testing for
                                    every cardholder. The EPA's planned corrective actions address all of the draft
                                    report recommendations. Based on the response to the draft report, one
                                    recommendation was added to the report that the agency will need to address.
For further information,
contact our public affairs office    Noteworthy Achievements
at (202) 566-2391.
                                    As we discuss in our audit results, the EPA began taking action to improve the
The full report is at:              oversight of purchase cards. The EPA is in the process of considering additional
www.epa.gov/oig/reports/2014/       improvements, including focused transaction reviews to ensure compliance with
20140304-14-P-0128.pdf              EPA policies. In addition, we commend the EPA’s strategic sourcing procurement
                                    efforts to obtain quantity discounts.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                             March 4, 2014

MEMORANDUM

SUBJECT:      Ineffective Oversight of Purchase Cards Results in Inappropriate Purchases at EPA
              Report No. 14-P-0128

FROM:         Arthur A. Elkins Jr.

TO:           Craig Hooks, Assistant Administrator
              Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The office responsible for implementing most of the recommendations is the Office of Acquisition
Management. The Office of Human Resources is responsible for implementing one of the
recommendations.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 60 calendar days. You should include planned corrective actions and completion dates for the
unresolved recommendation. Your response will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe PDF file
that complies with accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. The final response should not contain data that you do not want to be released to the public;
if your response contains such data, you should identify the data for redaction or removal along with
corresponding justification. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
acting Assistant Inspector General for Audit, at (202) 566-0565 or eyermann.richard@epa.gov;
or Janet Kasper, Director, at (312) 886-3059 or kasper.janet@epa.gov.
Ineffective Oversight of Purchase Cards                                                                                      14-P-0128
Results in Inappropriate Purchases at EPA



                                   Table of Contents 


Chapters
   1     Introduction ........................................................................................................      1


                 Purpose .......................................................................................................    1     

                 Background .................................................................................................       1     

                 Responsible Offices ....................................................................................           2     

                 Noteworthy Achievements...........................................................................                 2

                 Scope and Methodology..............................................................................                2


   2     Purchase Card Team Did Not Provide Effective Oversight............................                                         4


                 Purchase Card Users Must Comply with Federal and
                      EPA Requirements ...............................................................................              4

                 EPA Cardholders and Approving Officials Did Not Comply With
                      Policy and Procedures .........................................................................               5

                 Ineffective Oversight Contributes to Risks ..................................................                     10 

                 Purchase Card Program Needs Improvement ............................................                              11 

                 Conclusion...................................................................................................     11 

                 Recommendations ......................................................................................            12 

                 Agency Comments and OIG Evaluation......................................................                          12 


   3     Biennial Reviews Need Improvement ..............................................................                          15 


                 Biennial Review Requirements ...................................................................                  15     

                 Biennial Reviews Are Not Effective in Identifying and Correcting
                      Internal Control Weaknesses ...............................................................                  15 

                 Internal Control Problems Continue Year After Year ..................................                             17 

                 Recommendations ......................................................................................            17 

                 Agency Comments and OIG Evaluation......................................................                          17 


   4     Strategic Sourcing to Gain Better Prices.........................................................                         18


   Status of Recommendations and Potential Monetary Benefits..............................                                         20




Appendices
   A     Agency’s Response to Draft Report.................................................................                        21 


   B     EPA’s Agreed Corrective Actions and Planned Completion Dates ..............                                               25 


   C     Distribution .........................................................................................................    26 

                                  Chapter 1

                                  Introduction
Purpose
            The Government Charge Card Abuse Prevention Act of 2012 states the Inspector
            General is to conduct periodic assessments of the agency purchase card and
            convenience check programs to identify and analyze risks of illegal, improper or
            erroneous purchases and payments. The U.S. Environmental Protection Agency’s
            (EPA’s) Office of Inspector General (OIG) conducted an audit of the purchase
            cards and convenience checks to determine whether the EPA:

                  Has sufficient controls to identify potentially illegal, improper and
                   erroneous use of purchase cards.
                  Is analyzing purchase card transactions to identify purchases that could be
                   made by other means to obtain lower prices.

Background

            The government purchase card program was established over 30 years ago to
            streamline the federal acquisition processes by providing a low-cost, efficient
            vehicle for obtaining goods and services directly from vendors. The General
            Services Administration (GSA) administers the governmentwide purchase card
            program. GSA contracts with several banks, including J.P. Morgan Chase, the
            bank the EPA uses to provide purchase cards to employees.

            Office of Management and Budget (OMB) Circular A-123, Appendix B,
            Improving the Management of Government Charge Card Programs, established
            minimum requirements and best practices for agency purchase card programs. In
            addition, Appendix B requires that each agency develop and maintain written
            policies and procedures for the appropriate use of government purchase cards.

            The Government Charge Card Abuse Prevention Act of 2012 was enacted on
            October 5, 2012. It is designed to prevent recurring waste, fraud and abuse of
            government charge cards. The law requires agencies to take appropriate personnel
            actions for employees who violate purchase card guidelines or make erroneous,
            improper or illegal purchases. The law mandates a set of 13 core safeguards and
            internal controls each agency should utilize to prevent and detect improper use of
            government charge cards. It further instructs the OIG to conduct periodic risk
            assessments to determine the scope, frequency and number of periodic audits. The
            OIG’s analysis or audits should identify:

                  Potentially illegal, improper or erroneous uses of purchase cards.
                  Any patterns of such uses.


14-P-0128                                                                                     1
               	 Categories of purchases that could be made by means other than purchase
                  cards in order to better aggregate purchases and obtain lower prices.

            For fiscal year (FY) 2012, the EPA’s 1,370 active cardholders transacted more
            than $29 million in purchases. In addition, the EPA’s 309 convenience check
            writers wrote more than 1,000 checks totaling more than $500,000. The EPA had
            1,370 active purchase card holders of the 2,071 employees who are assigned
            purchase cards. Some employees have cards only for emergency response
            purposes. The bank contract provides refunds based on annual net volume of sales
            as well as prompt payment, and the EPA estimated that FY 2012 refund dollars
            totaled $350,900.

Responsible Offices
            The office responsible for implementing most of the recommendations is the
            Office of Administration and Resources Management’s (OARM’s) Office of
            Acquisition Management. OARM’s Office of Human Resources is responsible for
            implementing one of the recommendations.

Noteworthy Achievements
            As we discuss in our audit results, the EPA began taking action to improve the
            oversight of purchase cards. According to the EPA’s purchase card team staff,
            some of the actions the EPA has implemented as of August 2013 include review
            of monthly bank reports to identify taxes paid on transactions and review of payee
            names on convenience checks to look for checks to EPA employees. The EPA is
            also in the process of considering other improvements, such as focused
            transaction reviews to ensure compliance with EPA policies, uniform standard
            operating procedures, and working with human resources on disciplinary actions
            for misuse, fraud, and abuse of purchase cards.

Scope and Methodology

            We conducted this audit from January 2013 through November 2013, in
            accordance with generally accepted government auditing standards issued by the
            Comptroller General of the United States. Those standards require that we plan
            and perform the audit to obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on our audit objective.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objective.

            The purchase card team within the Office of Acquisition Management’s (OAM’s)
            Policy, Training and Oversight Division is responsible for administering the
            purchase card program and serves as the liaison between cardholders and the
            contracted bank. The team establishes policies and training requirements. They
            oversee set up and canceling of accounts and provide ongoing advice to


14-P-0128                                                                                    2
            cardholders and approving officials. In addition, they conduct purchase card
            oversight to ensure that the program is operating in accordance with applicable
            guidance.

            We evaluated the effectiveness of the EPA’s internal controls through review of
            policies, procedures and biennial reviews as well as transaction testing. We
            analyzed the internal control procedures available on the purchase card website
            and obtained from the purchase card team. We reviewed reports of declines,
            infractions, inactivity, split purchases and separated employees. We reviewed
            criteria documents such as OMB A-123 Appendix B, EPA’s Contract
            Management Manual, and EPA guidance on food and awards.

            We evaluated the EPA’s purchase card and convenience check internal controls
            by interviewing purchase card holders, approvers and management responsible for
            oversight. We tested the effectiveness of internal controls through review of
            transactions selected from a focused sampling plan. We obtained a spreadsheet of
            the 67,000 FY 2012 transactions. Next we reviewed the merchant names and
            merchant category codes for atypical transactions and higher risk transaction
            groups. Then we randomly selected 69 transactions from the 15 transaction
            groups. We did not choose a statistical sample because the Government Charge
            Card Abuse Prevention Act of 2012 emphasized identifying cases of illegal,
            improper or erroneous purchases. We also selected 11 transactions that seemed
            inappropriate because of the name or merchant category codes (such as dance
            hall, child care, theater and music). Cardholders, convenience check writers and
            approving officials were asked to provide documentation supporting each of the
            selected transactions.

            We analyzed the FY 2012 biennial reviews to identify the internal controls tested
            and how the results were used by management. We also reviewed how the
            internal controls were reported in OARM’s annual Federal Managers’ Financial
            Integrity Act (FMFIA) assurance letter to the EPA Administrator. We interviewed
            staff who prepared biennial reviews and the FMFIA assurance letter. We
            compared the FY 2012 biennial review results to the 2008 biennial review results
            and attempted to obtain the FY 2010 results as well.

            We analyzed the largest dollar volume vendors from FY 2012 to determine the
            top five vendors. Then we interviewed responsible staff to determine actions the
            EPA is taking to obtain lower prices.

            There were no prior audits impacting the objectives of this assignment.




14-P-0128                                                                                      3
                                            Chapter 2

                  Purchase Card Team Did Not Provide 

                          Effective Oversight 

                  The EPA did not provide effective oversight to ensure that purchase card holders
                  and approving officials comply with internal control procedures. Purchase card
                  users must comply with federal and EPA requirements. The EPA’s oversight was
                  not effective because of inattention to EPA policies by cardholders, approving
                  officials and the purchase card team. Of $152,602 in transactions we sampled, we
                  found $79,254 of prohibited, improper and erroneous purchases were not
                  detected. This lack of compliance indicates a continued risk of prohibited,
                  improper and erroneous purchases.1 Improved purchase card oversight potentially
                  saves money by reducing prohibited, improper and erroneous purchases, which
                  would be especially helpful in the current budget environment.

Purchase Card Users Must Comply With Federal and EPA
Requirements
                  OMB Circular A-123, Appendix B, Improving the Management of Government
                  Charge Card Programs, states that agencies should identify specific risks
                  associated with charge card programs, and implement strict internal controls to
                  mitigate these risks to the greatest possible extent. The charge card management
                  plan requires management controls, policies and practices for ensuring
                  appropriate charge card and convenience check use, oversight of payment
                  delinquencies, fraud, misuse or abuse.

                  The EPA’s Contracts Management Manual (CMM) establishes policy for the use
                  of governmentwide commercial purchase cards. The CMM provides guidance in
                  the following areas:

                      	 Record Keeping: Cardholders are required to maintain a purchase card
                         log as well as other supporting documentation, and coordinate with
                         property officials to ensure that accountable or sensitive personal property
                         purchases are tracked.
                       Prior Approval: Approval from the approving and funds certifying
                         officials is required prior to purchase.
                       Independent Receipt Verification: Cardholders shall obtain third party
                         verification that the item ordered was received.
                      	 Prohibited Transactions: Transactions using third-party payment
                         processors and individual employee memberships in professional
                         organizations are prohibited.

1
 In this report, we define improper transactions as purchases that, although intended for government use, are not
permitted by law or government/agency policy.


14-P-0128                                                                                                           4
                     	 Restricted Transactions: Cardholders are restricted in making certain
                        purchases. For example, acquisition professionals are needed to make
                        purchases for orders requiring the cardholder to accept a vendor’s terms or
                        sign a vendor’s agreement or contract, public building alteration and
                        repair, and purchases requiring a statement of work or certain advance
                        payments.
                     	 Requires Prior Approval: Some transactions require additional approvals:
                        o	 An information management officer signature or email confirmation is
                            required for electronic and information technology.
                        o	 A facilities manager’s signature or email confirmation is required
                            when the purchase includes conference facilities and meeting rooms,
                            audio-visual equipment, and building alteration and repair.
                        o	 A training officer’s signature or email confirmation is required for
                            employee training.2
                      Specific Sources: The CMM lists priority sources that must be used
                        before purchasing from commercial vendors.
                     	 Closer Scrutiny Required: Non-monetary awards, light refreshments and
                        meals, conferences, meeting retreats and other events require closer
                        scrutiny.
                     	 Standard Operating Procedures: All approving officials must develop
                        standard operating procedures but the content is at the discretion of the
                        approving officials as long as procedures are consistent with federal and
                        agency policy.

EPA Cardholders and Approving Officials Did Not Comply With
Policy and Procedures
                 The EPA’s oversight was not effective in ensuring that purchase cardholders and
                 approving officials complied with internal controls. The EPA’s internal controls
                 did not prevent prohibited, improper and erroneous purchases. The EPA staff did
                 not follow policies on restricted and prohibited transactions and records
                 maintenance, leading to questions regarding the validity of the purchases.

                 We found a number of transactions where cardholders, approving officials, the
                 purchase card team and program offices were not providing oversight. Although
                 cardholders must evaluate each purchase request to ensure that it complies with
                 federal and agency acquisition rules, in many transactions, they did not. Although
                 the approving official is responsible for conducting personal and detailed reviews
                 of cardholders’ transactions to ensure compliance with all applicable regulations,
                 policy, special approvals and purchase card procedures, the approving official
                 frequently did not provide the required oversight.




2
  Although the CMM does not include conferences in the definition of training, EPA’s process for approving
training includes any type of training event including conferences.


14-P-0128                                                                                                    5
            Table 1 summarizes top internal control issues from the 80 high risk transactions
            we reviewed. No internal control issues were found in three transactions, and the
            other transactions averaged two internal control issues, but one had six.

            Table 1: Top internal control issues
                                                                                   Number of
                Ref.                 Internal Control Oversight Issues            transactions
                 1        Cardholders did not verify receipt                           28
                 2        Cardholders did not obtain prior approval                    24
                 3        Transaction not funded prior to purchase                     20
                 4        Purchase logs not reviewed                                   14
                 5        Restricted transactions/missing required approvals           13
                 6        Required sources not utilized                                11
                 7        Closer scrutiny required but not performed                   10
                 8        Records not maintained                                        9
                 9        Prohibited transactions approved                              7
            Source: OIG analysis of documentation provided by the EPA.

            1 - Cardholders Did Not Verify Receipt

            In 28 (35 percent) of the 80 sampled transactions, valued at $47,222, cardholders
            did not have the required independent third party verification. The CMM requires
            third party verification that the ordered item was received. In one transaction, the
            cardholder explained that verbal verification was received, but it was not noted.
            Several training transactions did not have proof that training was received,
            although some verification was provided after we asked for it. Most gift card
            recipients were not required to sign for them upon receipt. Cardholders did not
            obtain verification for a variety of reasons, including they did not believe it was
            applicable or they did not understand the definition of third party verification.
            Noncompliance increases the possibility that purchases could be made for
            personal use rather than government need. It also increases the risk that the
            government is paying for items that were not received.

            2 - Cardholders Did Not Obtain Prior Approval

            Cardholders placed orders prior to receiving approving official approval for 24
            (30 percent) of the 80 sampled transactions, valued at $39,713. The CMM
            requires approval prior to purchase unless approving official operating procedures
            waive the requirement for certain purchases, such as office supplies. In two
            training transactions, cardholders mistakenly stated that approval is not required
            since the training officer had approved the training. When approving officials do
            not approve purchases in advance, there is a higher risk that purchases will not
            comply with EPA guidelines. Approving officials are supposed to determine if
            transactions are reasonable and necessary, and their oversight can provide needed
            cost savings.



14-P-0128                                                                                        6
            3 - Transactions Not Funded Prior to Purchase

            Cardholders did not obtain funding prior to purchase for 20 (25 percent) of the
            80 sampled transactions, valued at $41,415. The CMM states that before placing
            orders, cardholders must coordinate with the funds certifying official to ensure
            funds are available. One cardholder waited until the employee received the
            product before requesting the funding. Another cardholder was not aware of this
            requirement. Cardholders may believe that funding is only required prior to
            payment, not prior to purchase. When cardholders are noncompliant with this
            funding requirement, the EPA has a higher risk of improperly obligating
            government funds.

            4 - Purchase Logs Not Reviewed

            Approving officials did not review purchase card logs for 14 (18 percent) of the
            80 sampled transactions, valued at $22,402. The CMM requires that approving
            officials review and approve cardholders’ logs at least quarterly. Approving
            officials were inattentive to this requirement. In one transaction, the approving
            official incorrectly believed it was unnecessary to perform a quarterly review
            because he approved the purchase in advance. Consequently, he was unaware that
            the funder and cardholder amended his prior approval to purchase an additional
            item. In fact, this was a fraudulent purchase in the amount of $805. When
            purchase card logs are not reviewed quarterly, cardholders may change previously
            approved purchases and the approving official would not discover potential fraud.
            In this budget environment, it is especially important that approving officials
            ensure that cardholders are being good stewards of taxpayer dollars.

            5 - Restricted Transactions/Missing Required Approvals

            In 13 (15 percent) of 80 transactions, valued at $21,465, cardholders did not
            follow restricted transaction and approval policies. The CMM identifies certain
            transactions as restricted to purchase by acquisition professional cardholders, or
            requires approval by a facilities manager, information management officer or
            training officer. Cardholders who were not acquisition officials purchased items
            that EPA guidance restricts to acquisition professionals. Examples of such
            transactions include anything requiring a statement of work, advanced payments,
            facilities or technology purchases.

               	 In three instances, cardholders who were not acquisition professionals
                   purchased gym memberships that required pre-payment for services
                   totaling $2,867. Two of those purchases were for family memberships,
                   and not just the EPA employee. The cardholders were inattentive to the
                   policy that requires any order requiring advance payment be ordered by
                   acquisition professional card holders. When cardholders do not involve
                   acquisition professionals, the government’s interest is not protected.



14-P-0128                                                                                        7
               	 In several transactions, meeting space was purchased without the approval
                   of an EPA facilities manager or by an acquisition professional cardholder.
                   One cardholder held a meeting at a nearby hotel and did not know he was
                   required to seek approval from the EPA facilities manager. The EPA could
                   have saved over $2,400 if the meeting was held in the nearby government
                   conference room.

               	 In another transaction for booth rental, an acquisition professional was not
                   involved as required. Neither the cardholder nor the approving official
                   knew that a contract required an acquisition professional. When
                   acquisition professionals are not involved, there is a risk that the
                   government’s interests are not protected.

            Since the purchase cards are intended for simple, over-the-counter purchases, and
            most cardholders are not acquisition professionals, they do not have the training
            to properly process orders which require statements of work, specifications,
            clauses or indefinite pricing.

            6 - Required Sources Not Utilized

            In 11 (14 percent) of the 80 sampled transactions, valued at $11,694, for the
            purchase of supplies, cardholders and approving officials did not use mandatory
            sources and thought that it was optional. The CMM allows cardholders to opt out
            of using mandatory sources only under specific circumstances. One cardholder
            said the mandatory vendor takes too long to deliver, and another cardholder did
            not think that the mandatory source requirement applied. None of the cardholders
            documented the need for an alternative vendor over mandatory sources.
            Cardholders and approving officials misunderstood the EPA’s policy requirement
            for using mandatory sources before using a commercial vendor. When
            cardholders do not use mandatory sources, the EPA does not obtain the potential
            cost savings from strategic sourcing agreements.

            7 - Closer Scrutiny Required But Not Performed

            Ten (13 percent) of 80 sampled transactions required closer scrutiny and were not
            handled appropriately. They were valued at and resulted in cost issues of $12,643.
            We found that cardholders and approving officials were not cautious in the
            following situations:

               	 Inappropriate food purchases were a problem in three transactions. The
                   CMM advises cardholders and approving officials to be cautious when
                   placing orders for clothing, entertainment, non-monetary awards and light
                   refreshments. EPA Order 1900.3 established policy for determining the
                   circumstances where light refreshments, meals or ethnic food samples may
                   be purchased using EPA-appropriated funds and defines light refreshments



14-P-0128                                                                                    8
                   for award ceremonies. Although light refreshments are defined as those
                   that do not include portions of food typical of a meal, in one of our
                   samples, light refreshments included all the elements of a meal for an
                   awards ceremony. Four different appetizers, chicken tenderloin, fresh
                   fruit, pasta salad, large cookies, soft drinks and punch were purchased at a
                   cost of $2,900. Meals are not an allowable expense for an awards
                   recognition ceremony. Cardholders misinterpreted the food policies. These
                   funds could have been put to better use, and inadequate oversight put
                   funds at risk.

               	 Gift cards were a problem in seven transactions. In one example,
                   20 American Express gift cards were purchased for $1,588 to provide
                   on-the-spot awards. There was no third-party verification that any
                   awardees received the gift cards. Office of Personal Management guidance
                   states that cash equivalents (including gift certificates and vouchers with a
                   clear face value) given as awards are generally taxable. The Performance
                   Management Recognition Handbook states that an item or memento given
                   as a non-monetary award must demonstrate the employee-employer
                   relationship (e.g., EPA logo or other appropriate meaning) and must not
                   have a monetary value either in terms of being converted to cash or in
                   terms of clearly conveying a sense of cash value. The gift cards did not
                   meet these requirements. The EPA misinterpreted the policies related to
                   non-monetary awards. The EPA cardholders and approving officials
                   understood that gift cards could be used as employee awards because an
                   EPA attorney supposedly approved it in the past. The gift cards were not
                   an appropriate use of government funds and funds could have been put to
                   better use within EPA programs. Continued misapplication of the award
                   policy will continue this poor accountability and erroneous use of
                   government funds.

            8 - Records Not Maintained

            We found that nine (12 percent) of the 80 sampled transactions, valued at
            $33,549, were not supported by adequate recordkeeping. Documents supporting
            two transactions totaling $26,152 could not be located despite instructions to
            maintain supporting documentation. The EPA’s policy requires the retention of
            documentation for 3 years on a fiscal year basis. Cardholders were not attentive to
            this basic requirement. In two cases, the cardholders left their positions and no
            arrangements were made to retain the records. In another transaction the
            cardholder stated that records were not kept because of privacy concerns. This
            lack of documentation increases the risk that purchases could be fraudulent,
            improper or abusive.




14-P-0128                                                                                     9
            9 - Prohibited Transactions Approved

            In seven (9 percent) of 80 sampled transactions, cardholders and approving
            officials made $8,165 in purchases prohibited by the CMM. The CMM prohibits a
            number of types of purchases, including any order which is not a necessary expense
            of appropriated funds for official government business, use of third party processors
            which provide payment processing services for merchants that do not have a
            system to accept the credit card, and purchase of individual employee
            memberships. One cardholder purchased environmental education DVDs totaling
            $500 and used a third party processor because she did not have check writing
            privileges. In two other cases, the cardholders did not realize that a third party
            processor was used. Another cardholder purchased an individual employee
            membership in an academic organization. When the cardholders are inattentive to
            CMM policy about prohibited transactions, cardholders can make unnecessary
            and inappropriate purchases.

Ineffective Oversight Contributes to Risks
            The EPA’s oversight was not effective because of inattention to EPA policies by
            cardholders, approving officials and the purchase card team. They did not identify
            specific risks and implement strict internal controls to mitigate these risks to the
            greatest possible extent, as required by OMB.

            As part of its oversight, the purchase card team reviewed reports from the
            purchase card issuing bank for split purchases, declines and separation reports to
            look for erroneous transactions. However, according to the audit liaison of the
            Policy, Training and Oversight Division, the purchase card team has not
            conducted additional reviews of transactions due to a shortage of staff.

            Approving officials wrote their own standard operating procedures, as required by
            the CMM. However, some of the standard operating procedures were inconsistent
            with federal and EPA policies. For example, one office’s procedure classified
            lab/testing supplies, furniture and computer purchases as routine. Another office’s
            policy did not require prior approval by the cardholder’s approving official for
            training. Until recently, the purchase card team did not receive or review the
            standard operating procedures to know if they complied with the EPA’s overall
            purchase card policies.

            Inadequate training contributed to noncompliance with EPA policies. Some
            cardholders do not use their purchase cards every year. Consequently, they are
            less experienced and unfamiliar with the proper procedures. The requirement for
            training only once every 3 years may not be effective in maintaining cardholders’
            retention of proper procedures.




14-P-0128                                                                                     10
Purchase Card Program Needs Improvement
                            Seventy-five of 80 reviewed transactions were not in compliance with EPA
                            policies. The total sample value was $152,602, of which $79,254 represented
                            prohibited, improper and erroneous purchases. These transactions represented
                            purchases of gym memberships, food, hotel space, and purchases split to stay
                            under threshold for using the purchase card.

Table 2: The 80 sampled transactions listed by type of transaction and cost issues
                                     Sample     Third party                                                                      Total
      Transaction                     dollar    verification   Closer     Restricted/   Missing                                  cost
                                                                                                                        3
         Type               Sample    value     for training   scrutiny   approvals     records    Prohibited   Other           issues
    Fitness                    5      $19,735                                 $ 2,867    $14,368                                $17,235
    Gift certificates          5        8,163                     8,163                                                           8,163

    Split purchases            3        7,500                                                                    $7,500           7,500
    Office supplies           17       14,182                       500           199                               896           1,596

    Food                       7        4,784                     3,980                                                 21        4,001

    Hotel                      5       11,738                                                                     1,221           7,129
                                                                                5,908
    Training                   4        6,466                                     709                                       7         716
                        4
    Close to $3,000           10       52,101                                   5,930     11,788        3,000           42       20,760
    Unusual                    6        6,551                                   2,092                   3,015                     5,107
    merchant code
    Automotive                 5        7,185                                                                           17             17
    Charity                    4        1,750            350                                                                          350
    Third party                4        3,357                                                           2,150                     2,150
    processor
    Convenience                5        9,090          1,630                    2,900                                             4,530
    checks
    Total                     80     $152,602         $1,980    $12,643       $20,606    $26,156       $8,165    $9,704         $79,254

Source: OIG analysis of sampled transactions showing source of cost issues.

                            These transactions were undetected by EPA’s cardholders, approving officials and
                            purchase card team. With ineffective management controls to ensure the
                            appropriate use of EPA purchase cards, there is a continued risk of prohibited,
                            improper and erroneous purchases.

Conclusion
                            In summary, the EPA’s oversight did not ensure that purchase card holders and
                            approving officials complied with internal control procedures. Half of the dollar
                            value of our sampled transactions contained prohibited, improper or erroneous
                            purchases. This indicates an ongoing risk. Improved purchase card oversight

3
 This category includes split purchases, overcharges, sales tax and lost refunds due to late payment by cardholders.
4
 We sampled 10 transactions close to $3,000 because the micro-purchase threshold is $3,000. Purchases over $3,000 should
be handled by acquisition professionals and purchases close to $3,000 could be split purchases.


14-P-0128                                                                                                                        11
            could save the government money, which would be especially helpful in the
            EPA’s current budget environment.

Recommendations

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1.	 Implement regular transaction reviews to determine if the cardholders and
                   approving officials are complying with EPA guidance.

               2.	 Institute agencywide standard operating procedures, and ensure that any
                   deviations comply with guidance.

               3.	 Provide additional training on the purchase card policy and procedures to
                   the purchase card holders and approving officials to address the
                   noncompliance issues identified in this report.

               4.	 Revise the CMM to more specifically address purchases requiring closer
                   scrutiny such as gym memberships and gift cards.

               4a. Determine whether the purchase of gift cards as awards is an appropriate
                   use of government funds and make the necessary revisions to EPA
                   policies to establish appropriate internal controls.

               5.	 Institute follow-up actions as appropriate to hold individuals accountable
                   and recover the funds used for the prohibited, improper or erroneous
                   purchases identified in this audit.

Agency Comments and OIG Evaluation

            In its response, OAM agreed with all the recommendations and provided
            corrective action plans, with completion dates, to address the recommendation.
            OAM also commented on some of the findings and the draft report was revised
            where appropriate.

            In response to recommendation 1, OAM is planning the following corrective actions.

               	 Amend the CMM to address approval and documentation requirements for
                  purchase card actions procured through EPA’s Acquisition System by
                  warranted contracting officers.
               	 Deploy an automated system including an electronic purchase card log.
               	 Research, analyze and assess the viability of establishing liaisons in each
                  of 23 offices to work closely with OAM on managing internal controls and
                  oversight responsibilities.


14-P-0128                                                                                    12
                     	 Assess the viability of increasing data mining through the bank and Visa
                        to enhance internal controls and oversight.

                The agency indicated these corrective actions will be taken by September 30,
                2014. When implemented, the agency actions, taken as whole, should address the
                recommendation.

                OAM agreed with recommendation 2 and plans to develop and distribute draft
                standard operating procedures by March 31, 2014, with final procedures
                anticipated by December 31, 2014.5 When implemented, the agency actions
                should address the recommendation.

                In response to recommendation 3, OAM stated it is planning the following
                corrective actions.

                     	 Review the audit findings to ascertain the specific areas of noncompliance.
                        Develop mini training sessions for all cardholders and approving officials.
                        Training will be completed by September 30, 2014.
                     	 Depending on the severity of the violation, cardholder(s) and approving
                        official(s) deemed to be in violation of agency policy or procedures may
                        have their authority revoked or suspended pending the completion of the
                        aforementioned training.
                     	 Purchase card policy will be revised to include this supplemental training
                        requirement, as well as the new suspension and revocation implications.
                        A draft of the revised policy will be completed by September 30, 2014.
                     	 Purchase card training requirements will be changed from every 3 years to
                        every 2 years effective January 2014. The CMM revision will be updated
                        to reflect this change.

                When implemented, the agency actions should address the recommendation.

                In response to recommendation 4, OAM stated it is planning the following
                corrective actions.

                     	 Revise the CMM and review the audit findings to ascertain the specific
                        areas requiring closer scrutiny that will be addressed with cardholders and
                        approving officials. A draft rewrite will be completed by September 30,
                        2014.
                     	 Review cardholder supporting documentation and converse with both the
                        cardholder and approving office concerning the purchase of gym
                        memberships. Pursue reimbursement to the agency where deemed
                        appropriate by June 30, 2014.


5
 EPA response contained a December 30, 2015 date. However, we confirmed with OAM staff that it is supposed to
be December 30, 2014.


14-P-0128                                                                                                  13
               	 Recently blocked 130+ additional Merchant Category Codes to prevent
                  transactions considered high risk, including codes considered non-
                  applicable for routine Agency purchase card transactions.

            The agency’s corrective actions should address the recommendation.

            OAM stated that gift card purchases are not a purchase card issue but a process
            issue because managers are responsible for executing SF-50 actions, as they
            would for any other monetary or time off award, in order to capture this data on
            the employee’s W-2 form for tax purposes. The OIG was unable to identify this
            specific requirement and the response did not address the issues in the report
            related to gift cards. Our review found several issues related to the use of a
            purchase card to buy gift cards for awards. First, EPA Manual 3130 A2,
            Recognition Policies and Procedures Manual, does not specifically address
            whether gift cards can be used as informal or formal recognition. Second,
            purchase card holders bought multiple quantities of gift cards at the same time but
            did not always maintain records of who received the gift cards. Third, Office of
            Personal Management tax guidance on awards states gift certificates and vouchers
            are cash equivalents and are generally taxable regardless of amounts. The EPA
            needs to address each of these issues if it is to continue to allow purchase card
            holders to buy gift cards to be used as awards. Recommendation 4a has been
            added to address the issues related to gift cards. The EPA will need to provide a
            corrective action plan and milestone date for addressing the recommendation
            when responding to the final report. The responsible office for this new
            recommendation is the Office of Human Resources.

            OAM agreed with recommendation 5 and proposed the following corrective
            actions.

               	 Update the CMM to remove the prohibition against using third party
                  processors. The draft rewrite of the CMM will be completed by
                  September 30, 2014. OIG understands that third party processors are now
                  common and that OAM plans to remove the prohibition from the CMM.
                  OIG cautions that EPA must then ensure that IRS form 1099s are generated
                  for individuals who receive third party processor payments for services.

               	 Conduct follow-up to hold individuals accountable for other types of
                  prohibited, improper or erroneous purchases identified in the audit report.
                  Final written disposition will be completed by June 30, 2014.

            When implemented, the agency actions should address the recommendation.

            To assist in the resolution of the report and tracking of corrective actions,
            appendix B contains a table of the agreed-to corrective actions and planned
            completion dates.



14-P-0128                                                                                   14
                                  Chapter 3

             Biennial Reviews Need Improvement
            Although OARM’s FY 2012 FMFIA assurance letter stated that it would take
            corrective actions to correct any identified vulnerabilities and improper use of the
            purchase card, it did not complete the required 2010 biennial review and did not
            ensure that corrective actions were taken on vulnerabilities identified during the
            2008 biennial review. Federal and EPA policy require, at a minimum, a review
            every 24 months. The purchase card team allowed offices to skip the 2010
            biennial review and did not require follow-up to correct internal control
            weaknesses noted in prior years’ reviews because they did not believe they had
            the authority to do so. Because the EPA’s purchase card biennial reviews were not
            effective in identifying and correcting internal control weaknesses within program
            and regional offices, the same problems continued from 2008.

Biennial Review Requirements
            The EPA’s Purchase Card Review Program memorandum dated June 28, 2004,
            stated:

                   There has been no Agency consistency in how program oversight
                   reviews are conducted, and no centralized effort to capture and
                   review the reports for systemic issues. The agency needs a formal,
                   centralized purchase card oversight program that involves OAM
                   and EPA program offices or regions that use the purchase card.

            As a result of the memorandum, the CMM was updated to improve oversight
            consistency. The CMM assigns responsibility for the overall implementation,
            quality, and consistency of the purchase card program to the purchase card team.
            At least once every 24 months, program organizations shall conduct a review to
            ensure compliance with agency and federal policies. Program offices and regions
            decide when to schedule reviews, but reviews must be conducted at a minimum
            every 24 months. The review must encompass a sampling of transactions from
            each of the cardholders under the approving official. Program and regional offices
            shall provide the results of their reviews to the purchase card team, and the offices
            should perform required follow-up or corrective actions as needed.

Biennial Reviews Are Not Effective in Identifying and Correcting
Internal Control Weaknesses
            The EPA’s oversight was not effective in ensuring that biennial reviews were
            performed as required. The EPA was also not effective in ensuring consistency,
            and the FMFIA assurance letter was inaccurate.



14-P-0128                                                                                     15
            We were told that half of the program offices did not conduct a biennial review in
            2010 as required. No consequences occurred. The CMM required biennial
            reviews, but the purchase card team allowed offices to skip the 2010 biennial
            review and did not follow up on previous weaknesses. The purchase card team did
            not believe they had the authority to demand performance of the biennial reviews.
            Since the biennial review process was not followed, corrective actions and
            improved internal controls did not occur and weaknesses continued from 2008
            onward. Table 3 shows that the same internal control weaknesses that occurred in
            2008 continued to occur in 2012.

            Table 3: Comparison of weaknesses reported in 2008 and 2012 biennial reviews
                                                                    2008                  2012
                      Internal control weakness                biennial review       biennial review
             Missing third party verification of receipt              X                      X
             Supporting documentation not adequate                    X                      X
             Standard operating procedure difficulties                X                      X
             Purchase card logs not complete                          X                      X
             Cost allocations take more than 10 days                  X                      X
             Not approved before funds committed                      X                      X
             Did not use mandatory sources as required                X                      X
            Source: OIG analysis of the EPA’s 2008 biennial review consolidated report and the
            2012 biennial reviews.

            The quality of the biennial reviews was inconsistent among the programs and
            regional offices. We noted differences in whether responsible staff:

                    Use purchase card team guidance to perform the biennial reviews.
                    Observe and report additional risk factors noted during the review.
                    Plan the review in advance and assign support staff.
                    Test transactions of all cardholders.

            These differences resulted in biennial reviews that were inconsistent and did not
            allow the purchase card team to compare the internal controls in the program and
            regional offices. The EPA provided inadequate guidance to promote consistency
            in the biennial reviews. When quality is inconsistent, there is no way to compare
            results for systemic issues and take corrective actions.

            The August 17, 2012, FMFIA assurance letter issued by OARM to the EPA
            Administrator stated OARM will correct any identified vulnerabilities and
            improper use of the purchase card. At the time of the letter, neither the 2010 nor
            the 2012 reviews had been completed. FMFIA requires the OARM program
            office to attest to the soundness of its internal control procedures annually. The
            assurance letter staff were not aware that the required 2010 biennial review had
            not been performed. Also, they stated that the OARM letter only applied to
            purchases made by OARM cardholders. When assurance letters do not provide
            accurate status of internal control risks, the integrity of the FMFIA process and



14-P-0128                                                                                              16
            the adequacy of its internal controls to prevent fraud, waste and abuse are called
            into question.

Internal Control Problems Continue Year After Year

            Because the EPA’s purchase card biennial reviews are not effective in identifying
            and correcting internal control weaknesses, the same problems continue year after
            year. Also, if management is not aware of the extent of the problems, the risk
            cannot be mitigated. Since the biennial review process was not used as required in
            the CMM to improve the EPA’s compliance with agency and federal policies,
            corrective actions did not occur and weaknesses continued from 2008. In light of
            the current budget situation, the purchase card team should provide adequate
            internal control oversight to protect funds from unreasonable expenditures.

Recommendations

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               6.	 Ensure biennial review weaknesses are corrected by each office’s
                   management and correctly reported in OARM’s assurance letter.

               7.	 Change the biennial review process to ensure that each office conducts
                   uniform reviews including transaction testing for every cardholder.

Agency Comments and OIG Evaluation
            In response to recommendation 6, OAM agreed with our recommendation and is
            in the process of integrating purchase card oversight into the performance
            measurement and management program in order to ensure review results are
            correctly reported in OARM’s assurance letter. This will be completed by
            September 30, 2014. When implemented, the agency actions should address the
            recommendation.

            In response to recommendation 7, OAM agreed with our recommendation and
            will include organizational self assessments and peer reviews under the contract
            management assessment program. This will be completed by September 30, 2014.
            When implemented, the agency actions should address the recommendation.

            To assist in the resolution of the report and tracking of corrective actions,
            appendix B contains a table of the agreed-to corrective actions and planned
            completion dates.




14-P-0128                                                                                        17
                                   Chapter 4

            Strategic Sourcing to Gain Better Prices
             The EPA is analyzing efficiencies in contracting, including purchase card
             transactions to identify purchases that can be made by other means to obtain
             lower prices. OMB suggests program managers should be aware of any
             agencywide or multi-agencywide contracts that will yield better pricing and
             ensure that cardholders are aware of agency policies for using these contracts.
             The EPA just recently began its strategic sourcing efforts and is currently
             focusing on information technology and lab supplies. The EPA’s Business
             Analysis and Strategic Sourcing Service Center staff stated that increases in
             strategic sourcing agreements will result in potential cost savings of 8 percent.

             OMB Circular A-123, Appendix B, aims to improve the management of
             government charge card programs and suggests purchase card program managers
             should be aware of any agencywide or multi-agencywide contracts that will yield
             better pricing, and ensure that cardholders are aware of agency policies for using
             these contracts. For example, agencies should minimize the number of small
             orders from schedule contracts and consider a more strategic approach to buying
             certain commodities. Lastly, agencies should review and analyze purchase card
             spending patterns and levels for opportunities to negotiate discounts, improve the
             buying process and increase savings based on volume.

             The EPA initiated a Business Analysis and Strategic Sourcing Service Center
             team to identify efficiencies in contracting in October 2012. Strategic sourcing
             critically analyzes an organization’s spending patterns to better leverage its
             purchasing power, reduce cost and improve management of commonly purchased
             goods and services. The new team is pursuing strategic sourcing opportunities
             ranging from laboratory supplies to information technology services, which could
             potentially save up to $60 million in annual costs or avoided costs.

             We aggregated the purchase card transactions in FY 2012 by vendor and
             identified the top five purchase card vendors. The top four vendors are laboratory,
             office and computer suppliers. The EPA already had contracts with two of those
             vendors and is currently pursuing competitive blanket purchase agreements with
             two other vendors. Table 4 shows transaction and dollar volumes for the top five
             vendors.




14-P-0128                                                                                        18
            Table 4: Top Purchase Card Vendors in FY 2012
                            Number of
             Merchant      transactions      Dollar amount               Current contract actions
             Vendor A         1,459            $1,383,359        Pursuing blanket purchase agreement
             Vendor B         2,803             1,231,321        Currently has a contract
             Vendor C         2,075               930,370        Pursuing blanket purchase agreement
             Vendor D           399               411,823        Currently has a contract
             Vendor E         2,257               367,068        Nothing at this time
            Source: OIG analysis of purchase card top vendors.

            The EPA’s efforts to find additional cost savings may be realized in new strategic
            sourcing agreements. The EPA believes its efforts to pursue strategic sourcing
            agreements will result in the following:

                   Increased strategic sourcing agreements may decrease spending with
                    nonmandatory vendors.
                   New contracts established with multiple vendors will further promote
                    competition and best pricing alternatives.
                   Streamlining purchase opportunities will save costs, time and effort spent
                    on purchases.

            The EPA estimated potential cost savings of 8 percent.

            In light of the EPA’s strategic sourcing procurement efforts to obtain quantity
            discounts, we have no recommendation.




14-P-0128                                                                                              19
                                    Status of Recommendations and
                                      Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                       RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                                Planned
    Rec.       Page                                                                                            Completion   Claimed    Agreed-To
    No.         No.                          Subject                       Status1        Action Official         Date      Amount      Amount

    1         12       Implement regular transaction reviews to            O         Assistant Administrator   09/30/2014
                       determine if the cardholders and approving                     for Administration and
                       officials are complying with EPA guidance.                    Resources Management
    2         12       Institute agencywide standard operating             O         Assistant Administrator   12/31/2014
                       procedures, and ensure that any deviations                     for Administration and
                       comply with guidance.                                         Resources Management
    3         12       Provide additional training on the purchase         O         Assistant Administrator   09/30/2014
                       card policy and procedures to the purchase                     for Administration and
                       card holders and approving officials to address               Resources Management
                       the noncompliance issues identified in this
                       report.
    4         12       Revise the CMM to more specially address            O         Assistant Administrator   09/30/2014
                       purchases requiring closer scrutiny such as                    for Administration and
                       gym memberships and gift cards.                               Resources Management
    4a        12       Determine whether the purchase of gift cards        U         Assistant Administrator
                       as awards is an appropriate use of government                  for Administration and
                       funds and make the necessary revisions to                     Resources Management
                       EPA policies to establish appropriate internal
                       controls.
    5         12       Institute follow-up actions as appropriate to       O         Assistant Administrator   06/30/2014     $79         $79
                       hold individuals accountable and recover the                   for Administration and
                       funds used for the prohibited, improper or                    Resources Management
                       erroneous purchases identified in this audit.
    6         17       Ensure biennial review weaknesses are               O         Assistant Administrator   09/30/2014
                       corrected by each office’s management and                      for Administration and
                       correctly reported in OARM’s assurance letter.                Resources Management
    7         17       Change the biennial review process to ensure        O         Assistant Administrator   09/30/2014
                       that each office conducts uniform reviews                      for Administration and
                       including transaction testing for every                       Resources Management
                       cardholder.




1       O = Recommendation is open with agreed-to corrective actions pending.

        C = Recommendation is closed with all agreed-to actions completed.

        U = Recommendation is unresolved with resolution efforts in progress.





14-P-0128                                                                                                                                       20
                                                                                 Appendix A

                Agency’s Response to Draft Report
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                WASHINGTON, D.C. 20460

                                                                                       OFFICE OF
                                                                                  ADMINISTRATION
                                                                                  AND RESOURCES
                                                                                    MANAGEMENT
                                         JAN 24 2014
MEMORANDUM

SUBJECT:      Response to Draft Audit Report OA-FY13-0116: EPA Needs to Improve
              Purchase Card Oversight

FROM:         Craig E. Hooks, Assistant Administrator
              Office of Administration and Resources Management

TO:           Janet Kasper, Director
              Contracts and Assistance Agreements Audits

OAM has reviewed Draft OIG audit OA-FY13-0116, and provides the following discussion and
information in response to audit findings and recommendations.

                               Response to Recommendations

Recommendation 1: Implement regular transaction reviews to determine if the cardholders and
approving officials are complying with EPA guidance.

OAM Response: OAM agrees with this recommendation, but takes exception to the report
finding that Contracting Officers (CO’s) did not get Approving Official (AO) approval before
making a purchase (page 11 section 1 – Cardholders Did Not Obtain Prior Approval). Warranted
contracting officers are not subject to the same requirements as programmatic cardholders. COs
receive requisitions through EPA Acquisition System, which includes programmatic approvals
and validates the requirement. As a result, the EAS purchase request record fully complies with
purchase card approval and documentation policies. Having explained this situation, OAM
agrees that CMM Chapter 13.3 does not differentiate between documentation requirements for
CO’s versus program office cardholders. Consequently, the rewrite of CMM Chapter 13.3
“Using the Government-wide Commercial Purchase Card” will address approval and
documentation requirements for purchase card actions being procured through EAS by warranted
contracting officers for programmatic clients. A draft rewrite will be completed by September
30, 2014.

With regard to approval and documentation requirements for all other cardholders, OAM will
take the following corrective actions by September 30, 2014:


14-P-0128                                                                                    21
      Deploy an automated system including an electronic purchase card log with a
       requirement to document ALL purchase card transactions Agency-wide. The system will
       ensure documented evidence of electronic approvals and provide a record of all purchases
       made with purchase cards and/or convenience checks.
      Within each cognizant contracting organization, research, analyze and assess the viability
       of establishing Organization Program Coordinator (OPC) liaisons in each of EPA’s 23
       offices. These individuals will work closely with OAM on managing internal controls
       and oversight responsibilities within their respective programs or regional offices.
      Assess the viability of increasing data mining reporting through the bank and Visa to
       enhance internal controls and oversight.

Recommendation 2: Institute Agency-wide standard operating procedures, and ensure that any
deviations comply with guidance.

OAM Response: OAM agrees with this recommendation and will develop and distribute draft
standard operating procedures by March 31, 2014, with a final SOP anticipated by December 31,
2015.

Recommendation 3: Provide additional training on purchase card policy and procedures to
purchase cardholders and approving officials to address the non-compliance issues identified in
this report.

OAM Response: OAM agrees with this recommendation and will review the audit findings to
ascertain the specific areas of non compliance that need to be addressed with cardholders and
approving officials.

For areas of non-compliance identified, OAM will develop mini training sessions that will be
offered to all cardholder and approving officials on those subjects. These mini training sessions
will be in addition to the mandated (required) training that cardholders and approving officials
must successfully complete to obtain/maintain a purchase card, convenience check and/or
approving official authority. Training will be completed by September 30, 2014.

Depending on the severity of the violation, cardholder(s) and approving official(s) deemed to be
in violation of Agency policy and/or procedures may have their authority revoked, or suspended
pending the completion of the aforementioned training. Should a cardholder or approving official
fail to complete a required mini training session, the purchase card team will have the sole
discretion to suspend or revoke his/her purchase card, convenience check, and/or approving
official privileges. Purchase card policy will be revised to include this supplemental training
requirement, as well as the new suspension and revocation implications.

Furthermore, purchase card training requirements will be changed from every three years to
every two years for all cardholders and approving officials effective January 2014. Accordingly,
the revision to CMM 13.3 currently being vetted for comment will be updated to reflect this
change in training requirements.




14-P-0128                                                                                       22
Recommendation 4: Revise the CMM to more specifically address purchases requiring closer
scrutiny such as gym memberships and gift cards.

OAM Response: OAM agrees with the recommendation that questionable purchases be subject
to closer scrutiny in the revised CMM. Further, OAM will review the audit findings to ascertain
the specific areas requiring closer scrutiny that will be addressed with cardholders and approving
officials. OAM will review cardholder supporting documentation and converse with both the
cardholder and approving office concerning the purchase of gym memberships and pursue
reimbursement to the Agency where deemed appropriate by June 30, 2014.

In regards to gift card purchases, we do not consider this a purchase card issue, rather, we
consider it a process issue. When managers issue gift cards, they are responsible for executing
SF50 actions, as they would for any other monetary or time off award, in order to capture this
data on the employee’s W-2 form for tax purposes.

OAM also placed a block on 130+ additional EPA Agency-wide Merchant Category Codes
(MCC) to prevent transactions considered high risk, including codes considered non-applicable
for routine Agency purchase card transactions. These transactions will be declined at the point of
sale. For blocked transactions, cardholders will be required to contact the Purchase Card Team
to discuss and provide written supporting documentation for the proposed transaction which is
reviewed by a team member. In this scenario, determinations on whether to proceed with the
purchase will be subject to closer review and scrutiny by a purchase card team member.

Recommendation 5: Institute follow-up actions as appropriate to hold individuals accountable
and recover funds used for prohibited, improper or erroneous purchases identified in this audit.

OAM Response: OAM agrees with this recommendation, but takes exception to the report
finding regarding prohibited transactions involving third party processors (page 10). As a result
of changing market conditions and best practices, OAM acknowledges CMM Chapter 13.3
contains obsolete guidance on this subject. Accordingly, the prohibition against using third party
processors will be removed in the upcoming CMM policy rewrite.

With regard to holding individuals accountable for other types of prohibited, improper or
erroneous purchases, OAM will conduct follow-up communications with individuals identified
in the OIG draft report with a copy to the individual’s approving official and branch chief. These
communications will require that final written disposition of the questionable action(s) be
provided to the respective program division director. Dispositions will be completed by June 30,
2014

Recommendation 6: Ensure biennial review weaknesses are corrected by each office’s
management and correctly reported in OARM’s assurance letter.

OAM Response: OAM agrees with this recommendation and is in the process of integrating
purchase card oversight into the performance measurement and management program (PMMP),
in order to ensure review results are correctly reported in OARM’s assurance letter. This
integration and implementation will be completed by September 30, 2014.



14-P-0128                                                                                          23
Recommendation 7: Change the biennial review process to ensure that each office conducts
uniform reviews including transaction testing for every cardholder.

OAM Response: OAM agrees with these recommendations and is in the process of integrating
purchase card oversight into the performance measurement and management program, to include
reviews as part of the organizational self assessments and peer reviews under the PMMP’s
contract management assessment program. This integration and implementation will be
completed by September 30, 2014.


Having provided the above corrective actions in response to the OIG recommendations in the
subject audit, OAM also intends to implement a pilot program for an automated purchase card
system during FY14. The system will serve as the official cardholder electronic record including
supporting documents and receipts, and will enhance internal program controls and oversight by
allowing virtual program oversight audits of transaction records.

If you have any questions, please contact John Bashista, director, Office of Acquisition
Management at (202) 564-4310.



Attachment

cc:
Madeline Mullen
Nanci Gelb
John Bashista
Thomas Dussault
Lisa Maass
Ronda Boatright
John Showman
Steve Blankenship
Brandon McDowell




14-P-0128                                                                                    24
                                                                                              Appendix B

                EPA’s Agreed Corrective Actions and
                    Planned Completion Dates
 No.                                  Corrective action(s)                                    Comp. Date
  1    Amend the CMM to address approval and documentation requirements for
       purchase card actions procured through EPA’s Acquisition System by warranted
       contracting officers.                                                                     09/30/14
  2    Deploy an automated system including an electronic purchase card log.                     09/30/14
  3    Research, analyze and assess the viability of establishing liaisons in each of 23
       offices to work closely with OAM on managing internal controls and oversight
       responsibilities                                                                          09/30/14
  4    Assess the viability of increasing data mining through the bank and Visa to
       enhance internal controls and oversight.                                                  09/30/14
  5    Draft agency wide standard operating procedures for purchase cards.                           Draft
                                                                                                 03/31/14
                                                                                                     Final
                                                                                                 12/31/14
  6    Review the audit findings to ascertain the specific areas of noncompliance.
       Develop mini training sessions for all cardholders and approving officials.               09/30/14
  7    Depending on the severity of the violation, cardholder(s) and approving official(s)
       deemed to be in violation of agency policy or procedures may have their authority
       revoked or suspended pending the completion of the aforementioned training.               09/30/14
  8    Purchase card policy will be revised to include this supplemental training                    Draft
       requirement, as well as the new suspension and revocation implications.                   09/30/14
  9    Purchase card training requirements will be changed from every 3years to every
       2 years effective January 2014.                                                          completed
 10    Revise the CMM so questionable purchases are subject to closer scrutiny and                   Draft
       review the audit findings to ascertain the specific areas requiring closer scrutiny.      09/30/14
 11    Review cardholder supporting documentation and converse with both the
       cardholder and approving office concerning the purchase of gym memberships.
       Pursue reimbursement to the agency where deemed appropriate.                              06/30/14
 12    Blocked 130+ additional Merchant Category Codes to prevent transactions
       considered high risk, including codes considered non-applicable for routine agency       Completed
       purchase card transactions.                                                               12/10/13
 13    Update the CMM to remove the prohibition against using third party processors.                Draft
                                                                                                 09/30/14
 14    Conduct follow-up to hold individuals accountable for other types of prohibited,
       improper or erroneous purchases identified in the audit report. Final written
       disposition of the questionable action(s) will be provided to the respective program
       division director.                                                                        06/30/14
 15    Integrate purchase card oversight into the performance measurement and
       management program in order to ensure review results are correctly reported in
       OARM’s assurance letter.                                                                  09/30/14
 16    Include organizational self assessments and peer reviews under the contract
       management assessment program.                                                            09/30/14
Source: OIG analysis of EPA’s January 24, 2014 response and related communication.




14-P-0128                                                                                               25
                                                                              Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Research and Development
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Grants and Interagency Agreements Management Division,
    Office of Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
    Resources Management
Director, Office of Human Resources, Office of Administration and Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
    Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
    Resources Management
Audit Follow-Up Coordinator, Office of Policy and Resource Management,
    Office of Administration and Resources Management




14-P-0128                                                                               26
